<html>
<title> - NATIONAL STRATEGY FOR COUNTERING BIOLOGICAL THREATS: DIPLOMACY AND INTERNATIONAL PROGRAMS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                    NATIONAL STRATEGY FOR COUNTERING 
                   BIOLOGICAL THREATS: DIPLOMACY AND 
                         INTERNATIONAL PROGRAMS 

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 18, 2010

                               __________

                           Serial No. 111-91

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

55-516 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


































                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
JOHN S. TANNER, Tennessee            CONNIE MACK, Florida
GENE GREEN, Texas                    JEFF FORTENBERRY, Nebraska
LYNN WOOLSEY, California             MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            TED POE, Texas
BARBARA LEE, California              BOB INGLIS, South Carolina
SHELLEY BERKLEY, Nevada              GUS BILIRAKIS, Florida
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
VACANT
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation and Trade

                   BRAD SHERMAN, California, Chairman
GERALD E. CONNOLLY, Virginia         EDWARD R. ROYCE, California
DAVID SCOTT, Georgia                 TED POE, Texas
DIANE E. WATSON, California          DONALD A. MANZULLO, Illinois
MICHAEL E. McMAHON, New York         JOHN BOOZMAN, Arkansas
SHEILA JACKSON LEE, Texas            J. GRESHAM BARRETT, South Carolina
RON KLEIN, Florida
               Don MacDonald, Subcommittee Staff Director
          John Brodtke, Subcommittee Professional Staff Member
            Tom Sheehy, Republican Professional Staff Member
             Isidro Mariscal, Subcommittee Staff Associate


















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Vann H. Van Diepen, Acting Assistant Secretary, Bureau of 
  International Security and Nonproliferation, U.S. Department of 
  State..........................................................     7
Barry Kellman, J.D., President, International Security and 
  Biopolicy Institute............................................    37
Jonathan B. Tucker, Ph.D., Senior Fellow, James Martin Center for 
  Nonproliferation Studies, Monterey Institute of International 
  Studies........................................................    47
The Honorable Stephen G. Rademaker, Member, Commission on the 
  Prevention of Weapons of Mass Destruction Proliferation and 
  Terrorism, Senior Counsel, BGR Group (Former Assistant 
  Secretary of State for International Security and 
  Nonproliferation)..............................................    60

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Vann H. Van Diepen: Prepared statement.......................    10
Barry Kellman, J.D.: Prepared statement..........................    40
Jonathan B. Tucker, Ph.D.: Prepared statement....................    50
The Honorable Stephen G. Rademaker: Prepared statement...........    63

                                APPENDIX

Hearing notice...................................................    76
Hearing minutes..................................................    78
The Honorable Brad Sherman, a Representative in Congress from the 
  State of California, and Chairman, Subcommittee on Terrorism, 
  Nonproliferation and Trade: Extracted pages from a report by 
  the International Security & Biopolicy Institute entitled, 
  ``United States Foreign Policies and Programs to Reduce Bio-
  Dangers,'' dated March 2010....................................    79
Written response from Mr. Vann H. Van Diepen to question 
  submitted for the record by the Honorable Brad Sherman.........    88
Jonathan B. Tucker, Ph.D.: Comments for the record...............    89


  NATIONAL STRATEGY FOR COUNTERING BIOLOGICAL THREATS: DIPLOMACY AND 
                         INTERNATIONAL PROGRAMS

                              ----------                              


                        THURSDAY, MARCH 18, 2010

              House of Representatives,    
                     Subcommittee on Terrorism,    
                            Nonproliferation and Trade,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:07 a.m. in 
room 2172, Rayburn House Office Building, Hon. Brad J. Sherman 
(chairman of the subcommittee) presiding.
    Mr. Sherman. We are going to have a special treat at 
today's hearings. In the past, witnesses have been confined to 
only 5 minutes. Today's witnesses will be speaking for 7 
minutes or less. That will bring a special entertainment value. 
We are in tough competition on C-SPAN for higher ratings. The 
questioning period will be 5 minutes and opening statements 
will be five or seven or however long we take.
    There has been much recent attention to the threat that 
bioterrorism poses to our national security. Today's hearing 
provides a broad overview of our diplomatic and international 
effort to counter that threat. Earlier this year, the Weapons 
of Mass Destruction Commission, chaired by Senators Graham and 
Talent, issued a report card that included an assessment of our 
progress in biodefense.
    Their initial report found biological weapons are more 
likely to be acquired and used by terrorist groups than nuclear 
weapons. Although I might add that it is my belief that 
bioweapons would cause a lesser number of casualties; a smaller 
though more likely disaster.
    Indeed, the commission found that unless the world 
community acts decisively and with great urgency, it is more 
likely than not that a weapon of mass destruction would be used 
in a terrorist attack somewhere in the world by the end of 
2013. Since we have already seen the use of anthrax and the use 
of chemical and biological weapons in Japan over recent 
decades, this seems to be relatively safe prediction.
    The report further identified several weaknesses in our 
national biodefense, including the need for stronger 
Congressional oversight. This hearing is part of that 
oversight, and follows my request that the International 
Security and Biopolicy Institute prepare a report on our 
international efforts to counter biological threats.
    Without objection, I would like to put that study into the 
record of this hearing. Hearing no objection, so ordered.
    The hearing also provides us an opportunity to examine the 
Obama administration's national strategy to address biological 
threats.
    When the Graham/Talent Commission issued its assessment and 
report card on national progress in the WMD area, it contained 
sharp criticism of our national efforts to improve biodefense.
    The commission issued a failing grade, a grade of F, for 
U.S. efforts to mitigate the effects of biological attack. I do 
not fully agree with this grade. And it found that our 
international efforts, personified by our first witness here 
deserved a grade of between A and B; considerably better than 
most other aspects addressed in the report.
    It is important to note that others have countered that the 
commission has over-estimated the threat of biological attack. 
Some critics contend that we have spent too much on domestic 
preparedness, some $64 billion since 9/11 and the anthrax 
attacks.
    I have often said that the use of the term WMD is 
misleading, because it lumps into one category mustard gas and 
hydrogen bombs, along with all chemical, radiological and 
biological and nuclear threats.
    Even a crude nuclear explosive with a small yield could 
kill tens of thousands of people. Those uses of biological and 
chemical weapons against first world countries--here in the 
United States, Japan, and elsewhere, have involved dozens of 
casualties, rather than tens of thousands.
    I would hope our witnesses would be able to describe how 
they believe biological threats could lead perhaps to a mass 
casualty event; and it is important that we understand the 
nature and the possible casualties of different types of 
biological attacks.
    When it comes to biological threats confronting us today, 
we must consider the parallel threats from state-sponsored use 
of biological weapons, and from biological attacks perpetrated 
by terrorist groups. One of the longest-standing efforts to 
counter state-sponsored biological weapons programs is the 
Biological Weapons Convention, the BWC, which went into effect 
in 1975. Since that time, the BWC has not had a verification 
regime anywhere similar to the verification regimes we have for 
nuclear and chemical weapons.
    Some, including past administrations, have argued that 
traditional verification protocol could not keep pace with 
rapid developments in biological research; that basically 
biological weapons can be created in so many different 
facilities, legitimate facilities like the vaccine plant, ``too 
hard to detect,'' say some.
    Most recently in December, our good friend, Under Secretary 
for Arms Control<greek-l>, deg. Ellen Tauscher, reaffirmed the 
U.S. position on BWC compliance without seeking a verification 
protocol. The administration instead--and I think this is 
somewhat controversial--is trying to control biological weapons 
by disclosing the bioresearch that we are doing in Maryland and 
elsewhere.
    Some were saying this is telling the terrorists what 
defenses we have. Others would say that this is reassuring 
other countries in the world that our bioresearch is only for 
defense and constitutes a confidence-building measure (CBM).
    I look forward to learning more about how the United States 
can promote greater BWC compliance and verification without 
letting the bad guys know what our defenses are.
    The threat of a biological attack from a terrorist group 
presents a more amorphous problem, and they have argued that 
recent progress in biological research has greatly reduced the 
barriers to the development of bioweapons by relatively small 
groups and even individuals; provided they have the necessary 
technical competence.
    United States Government programs seek to engage foreign 
scientists and give them something to focus on, and not be up 
for hire by those seeking to create proliferation, now focus on 
the biological sciences as well as the nuclear sciences.
    I am eager to hear about the State Department's efforts in 
this regard through the Biosecurity Engagement Program and 
other diplomatic efforts.
    Finally, the ability to detect and assess infectious 
disease outbreaks, whether naturally occurring or intentionally 
instigated, is both important from a global public health 
standpoint, and from the standpoint of mitigating the impact of 
a biological attack.
    The internal health risk posed by H1N1 and SARS indicate 
that pathogens show little regard for national borders, and 
modern jet travel can transport these infectious agents from 
anywhere in the world to the United States.
    The Obama administration's national security strategy to 
counter biological attacks emphasizes the need for global 
disease surveillance as part of our national defense. 
Similarly, instruments like the International Health 
Regulations provide a framework for improving disease 
surveillance and reporting worldwide.
    In this regard, I continue to be concerned that Indonesia 
is not cooperating with the United States, particularly by not 
providing samples of avian flu found in that country; and I 
will address that in the questioning of the witnesses.
    Such efforts can simultaneously improve health, even in the 
most impoverished parts of the world; while at the same time 
fostering international biosecurity. I think I will conclude 
now, since my time has expired, and hear the words of our 
ranking member, Mr. Royce, from the great State of California.
    Mr. Royce. Thank you very much, Mr. Chairman, for calling 
this hearing. I think that bioterrorism really demands a lot 
greater attention by the administration, by the Congress, 
frankly, by everyone.
    This biological warfare really dates back to the beginning 
of recorded history. The world's first true historian, 
Thucydides, almost lost his life as a result of a technique 
that Persians and Greeks and Romans used of throwing carcasses 
down a well to poison it.
    And I think Athens lost a greater percentage of its 
population in the war with Sparta to this biological effect, 
than they did to the Spartan war machine. So it has a long 
history of being used in warfare.
    And today, germs present really a mass destruction threat, 
if we think about it. Scientists have been able to assemble 
infectious viruses, including the formerly extinct 1918 
influenza strain. That strain killed 30 million people.
    So every advancing technology and biotechnology just 
continues to proliferate. Several years ago, just outside of 
Moscow, I met with the so-called Father of the Plague; and I 
think his moniker might have been a bit overstated. But that is 
how the Russians referred to him. He was the top Russian 
scientist, and he had allegedly developed a genetically altered 
pathogen that had no antidote.
    He wanted us to meet with him, because he had been able to 
at least put an alarm system into the Moscow subways. He had 
never been outside of the country. But presuming we used 
subways, he wanted us to have this technology.
    You know, he really was sort of an insight. He wanted Jim 
Saxton and I to know the extent of what they had done. They had 
50,000 people in the Soviet biological weapons program at one 
point; a massive USSR violation of its BWC Treaty commitment, 
by the way. And he shared with me his concern that some of this 
legion had sold their expertise to Middle East countries.
    It is regrettable that the Russians have lessened their 
cooperation with our joint efforts to contain this 
proliferation. Over 10 countries today may have bioweapons 
programs.
    Al-Qaeda has sought biological weapons. Evidence seized in 
the 2003 arrest of Operations Chief Khalid Sheikh Mohammed 
revealed impressive technical sophistication, including 
information on weaponizing anthrax. Now that is one of those 
subjects that I discussed with the Russian scientist.
    That was 7 years ago. By the way, one of his students 
subsequently defected, and we had a chance to talk with him 
here in the United States. He confirmed what his professor had 
taught him; or what his mentor had taught him in this 
technology, and he was now trying to help us better understand 
what had been developed.
    Unfortunately, I am afraid that there is a great deal of 
complacency; and maybe complacency is normal. But the 2001 
anthrax attack--that little fiasco--cost us $6 billion and some 
American lives. Local officials speak of having to fight 
citizens' indifference to bolster our resilience to attack; 
that is just a realty.
    Ringing an alarm is the Bi-Partisan Commission on the 
Prevention of Weapons of Mass Destruction, Proliferation, and 
Terrorism. It concluded that ``our margin of safety is 
shrinking; not growing.'' The commission believes that unless 
decisive and urgent action is taken, then a WMD terrorist 
attack is likely to occur somewhere within 4 years. ``This 
attack'' the commission speculates, ``is more likely to be 
biological than it would be nuclear.''
    The commission reports that each of the last three 
administrations have been slow to recognize and respond to 
bioterrorism. The Obama administration, it found, lacks a sense 
of urgency. The commission gave the administration an ``F'' for 
not improving our biological attack response capabilities.
    I am looking forward to hearing from the administration 
today about why it thinks the commission gave it too tough a 
grade. Thank you, and I yield back, Mr. Chairman.
    Mr. Sherman. We will now hear an opening statement, if he 
chooses to give one, from our vice chair, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. This is a very timely 
hearing; very important hearing. I think we do face a serious 
probability and possibility of a bioterrorist attack.
    In my capacity as chairman of our Agriculture subcommittee 
on food safety, it is an issue of soaring magnitude. Largely 
because of our food supply, the nature of it, the free movement 
of it, the international aspects of it, the fact that we are, 
in fact, the bread basket of the world certainly looms very 
large in terms of the attractiveness as a target by terrorist 
groups.
    So as scientific progress marches on, we certainly have the 
potential and increasingly the capabilities to address many of 
the threats that we are facing. From developing new strains of 
rice to address world hunger; for vaccines that prevent the 
spread of disease like H1N1, scientific knowledge can and 
largely has led to the betterment of mankind, and continues to 
raise our living standards for all.
    But, however, like any knowledge, there is the potential 
for those who would wish us harm to unleash devastating 
attacks. We must not only prepare for that chance; but do our 
very best to prevent.
    Our most recent attack from a chemical biological weapon 
shows the sophistication and the change of tactics of 
terrorists, from our Christmas Day underwear bomber over a 
plane in New York. Who would have thought that a mere mixing of 
a chemical in one's under garments could blow a plane out of 
the sky?
    But this very serious scientific technological knowledge 
that we have to unleash great goodness across the world is the 
same technology that can be used in a warped backward evil 
sense, to cause us great harm. And we have got to be prepared 
to do everything we can to prevent this.
    In my travels to Russia and to Africa, every part of the 
nation we have been in, in the part of the world that we have 
been in, it just alarms me as to the laxness of our 
international approach; and trying to get an international 
cooperation, to understand the urgency of it; and our food 
supplies are so interchanged nationally.
    Just to take one example, 90 percent of all of the tomatoes 
that we use in this country come from outside this country. We 
are so inter-dependent internationally that we must move very 
rapidly to understand.
    As I said, biological science has led to great advances in 
addressing our food shortages and develop famine resistant 
crops. However, the agriculture sector in our nation's food 
supply overall can be very enticing targets for acts of 
bioterrorism.
    As our agriculture sector, as I mentioned, is known as the 
bread basket of the world, it is important to note that any 
attack on our food supply could have the devastating effects 
for the rest of the world.
    And then I mentioned, we are moving very rapidly in our own 
home state of Georgia, where the University of Georgia's very 
prestigious agriculture department is putting first a world 
class food supply, food security process that we are all going 
to be taking a closer look.
    And while, of course, we must make sure to address 
preventing the spread of disease outbreaks and protecting our 
water supply, or counter or avert direct attacks like the 2001 
anthrax attack, which we thought was a systematic, well 
orchestrated attack from multi-faceted approaches. But we come 
to find out, it was by one man; one man responsible for that 
devastating anthrax attack.
    So this looms big, Mr. Chairman; and I am very delighted 
that you put this together. I think we can get some answers to 
some questions. We need to have uniform definitions. What 
constitutes a biological weapon; and is that constitution 
accurate for every country? How can we tighten our 
international cooperation? Because that is the key.
    They are very, very serious questions. I look forward to 
the witnesses; and thank you, Mr. Chairman for putting this 
together.
    Mr. Sherman. Thank you. At this point, we will hear from 
our first witness. Oh, excuse me, Ambassador Watson has come, 
and we wish to hear her opening statement.
    Ms. Watson. I would say good morning to the chairperson; 
and thank you for convening today's hearing to review our 
national and international response to countering biological 
threats.
    It is never too early to discuss and review the 
effectiveness of current policies and practices, so that we 
might learn what works; evaluate what does not; and revise or 
strengthen national and international efforts to prepare for 
and hopefully prevent the next biological attack.
    In recent history, when we think of a biological terrorist 
attack, it is not hard to forget the aforementioned anthrax 
attacks here in Washington, after the tragedy of September 11, 
2001; where five people were killed and 17 others infected.
    Since then, agencies across Federal, state, and local 
governments have taken steps to address issues of prevention, 
training, evaluating resources, and coordinating efforts; as 
well as increasing public education, participation and 
awareness.
    Some have noticed that while there are many agencies in 
departments that have resources dedicated to prevention and 
mitigating damage and harm to the public, there is still a 
large gap in inter-agency and inter-governmental communications 
and coordinations.
    Others have also noted that while it is important to have 
regulation and oversight of bi-containment technologies and 
control of high containment laboratories, the Federal 
Government must not stifle or inhibit international academic 
collaboration in order for the scientific community to continue 
its study on biological chemicals.
    In this committee, we have addressed export controls and 
review of the Arms Export Control Act, and the Export 
Administration Act, which operates on the principal that the 
export of certain goods requires licensure specifically denying 
such licenses if the items will contribute to biological 
weapons proliferation.
    Mr. Chairman, as lawmakers, we have a responsibility to 
evaluate policy and close gaps in order to strengthen and 
protect our citizens. We also have an obligation to work toward 
international transparency and diplomatic efforts.
    I appreciate the panel for taking time to appear before 
this committee. I look forward to hearing and listening to the 
witnesses testimony. And I do indeed want to thank you, and I 
yield back the balance of my time.
    Mr. Sherman. I thank the Ambassador for joining us here and 
for that opening statement. We now turn to our first witness. I 
want to introduce Vann Van Diepen. Mr. Van Diepen has been the 
Principal Deputy Assistant Secretary of State, PDAS, for 
International Security and Nonproliferation since June 2009.
    The International Security and Nonproliferation Bureau 
spearheads U.S. efforts to promote consensus on WMP 
proliferation through bilateral and multi-lateral diplomacy; 
Mr. Van Diepen?

     STATEMENT OF MR. VANN H. VAN DIEPEN, ACTING ASSISTANT 
        SECRETARY, BUREAU OF INTERNATIONAL SECURITY AND 
           NONPROLIFERATION, U.S. DEPARTMENT OF STATE

    Mr. Van Diepen. Thank you, Mr. Chairman and members of the 
subcommittee. I want to thank you for the opportunity to appear 
today. The President's new National Strategy for Countering 
Biological Threats signals a major development in our 
international efforts to combat those threats. And today, I 
would like to share more information on the activities that we 
conduct at the State Department to implement that strategy.
    I would like to request that my prepared testimony be 
included in the record of today's hearing; and I will present a 
shorter version here in my oral statement.
    What I intend to do is to take a moment to outline the 
threat, and then describe some key activities that the State 
Department is undertaking internationally to implement the 
strategy.
    As already indicated in many of the opening statements, 
Congress is keenly aware that there is a real and present 
danger of biological attack, given the 2001 anthrax attacks. 
The most obvious and recent danger comes from terrorist groups 
that have expressed an intent to obtain biological weapons, 
especially al-Qaeda. And we are also concerned about the 
ambitions of some nation states to develop biological weapons.
    A successful attack using a pathogenic agent could not only 
result in sickness and death; but could cause panic, loss of 
public trust, and enormous economic damage.
    The President's strategy complements our preparations to 
respond to biological events, by placing more emphasis on 
efforts to prevent such events; or at least to reduce the 
likelihood that they will take place.
    State's efforts to implement the strategy internally are 
focused on reducing the likelihood that terrorists or states 
interested in biological weapons could obtain the experience or 
materials to develop and use them. Working with the 
international community to transform the dialogue on biological 
threats is a key objective in the strategy; and State plays a 
critical role in achieving this objective by working through 
existing multi-lateral mechanisms.
    Today, I am going to highlight our work in the Biological 
Weapons Convention, the State Department's Biosecurity 
Engagement Program, and in the G-8 Global Partnership against 
the spread of WMD.
    In each of these areas, there is a new-found urgency 
related to the need to work together to strengthen our 
collective security against biological threats.
    A key element of the strategy is revitalizing the Biologic 
Weapons Convention, which we intend to use to promote and 
globally advance our biosecurity objectives, through using the 
BWC as our premier forum for global outreach and coordination.
    In particular, we will tighten the linkage between global 
security against infectious disease; through strengthening 
basic health capacities on the one hand, and on the other hand, 
the security community's need to counter man-made disease 
threats.
    Last year, the Biological Weapons Convention States, 
Parties and experts from a wide range of health, science, and 
security organizations focused on disease surveillance and 
related capacity building, with a particular emphasis on 
implementation of the World Health Organization's International 
Health Regulations.
    The focus of BWC meetings in 2010 is on providing 
assistance in the event of an unusual disease outbreak or an 
alleged use of biological weapons. On our part, we are going to 
have the FBI and the Centers for Disease Control brief on their 
efforts on training for joint criminal epidemiological 
investigations.
    And there will be several U.S. sponsored conferences on 
bio-risk management and on scientific and technical 
breakthroughs that can be applied to disease surveillance. And 
we are looking forward to the seventh 5-year BWC Review 
Conference in 2011 as an opportunity to further the objectives 
of the strategy.
    In addition to BWC, State's Biosecurity Engagement Program 
(BEP) is working to reduce the threat of bioterrorism through 
cooperative activities to prevent terrorist access to 
potentially dangerous biological materials and expertise, while 
supporting legitimate efforts to combat infectious disease and 
enhance public and animal health worldwide.
    Since 2006, the BEP program has matured into a $37-million-
a-year effort, focused on regions and countries where there is 
a nexus of terrorism, emerging infectious disease, and rapid 
growth in biotechnology in high containment laboratories.
    BEP provides support for and closely coordinates activities 
abroad with other U.S. departments and agencies, particularly 
Defense, Health and Human Services, and Agriculture, to 
directly address several key objectives of the strategy.
    BEP provides assistance to improve laboratory biosecurity 
and biosafety best practices, improves capacity for infectious 
disease detection, surveillance and control, and engages 
biological scientists and public and animal health experts to 
reduce the potential for exploitation of biological expertise, 
information, and material. And BEP not only improves 
international security; but provides a dual-benefit of 
improving global health.
    We are also addressing another key challenge identified in 
this strategy; that of reinforcing norms for safe and 
responsible conduct of biological activities.
    For example, we are sponsoring biological safety 
associations across Southeast Asia and in the Middle East that 
can provide a sustained mechanism for countries to provide 
training to life scientists and public and animal health 
professionals on bio-risk management and responsible scientist 
conduct.
    State also coordinates and promotes additional cooperative 
international efforts to counter the biological threat via the 
G-8 Global Partnership; a 10-year, $20-billion nonproliferation 
effort that was launched in 2002, and has thus far focused on 
programs in the former Soviet Union.
    This year, we are working closely with the Canadian G-8 
Presidency and with the other G-8 partners, to extend the 
partnership beyond 2010. This expanded program will bring 
additional resources from partner countries to bear on 
addressing global biological threats and also threats beyond 
those in the former Soviet Union.
    We are also working to help U.N. member states manage 
biological security threats by helping them implement U.N. 
Security Council Resolution 1540, which requires all U.N. 
members to have proliferation export controls and to secure 
dangerous materials.
    Mr. Chairman, I hope that I have been able to provide you 
with a better understanding of the serious efforts by the 
Department of State against the biological threat. I have 
appreciated the opportunity to outline for the subcommittee 
what we are doing in concrete terms to implement the 
international aspects of the national strategy.
    State, of course, does not work alone, and relies on its 
close working relationship with other U.S. Government agencies, 
the Congress, and the international community to expand these 
efforts and make them more successful; thank you.
    [The prepared statement of Mr. Van Diepen 
follows:]Vann Van Diepen deg.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sherman. Thank you; I am going to recognize the other 
members of the subcommittee for questions first, and do my 
questioning last. So I first recognize Mr. Scott.
    Mr. Scott. Thank you very much; welcome Mr. Van Diepen. Let 
me ask you this question if I may. In one respect, we have been 
very fortunate that we have not had a biological terrorist 
attack since 2001 and with the anthrax scare. How do you 
account for that? Why do you say that has happened?
    Mr. Van Diepen. Well, I think there is probably a complex 
of answers to that question, Congressman. First of all there, 
of course, has been a very intensive U.S. counter terrorism 
effort, assisted by international partners, and various 
biological related activities have been disrupted, such as the 
anthrax activities in Afghanistan that are noted in my written 
testimony.
    Likewise, I think biological attack is more difficult for a 
terrorist to perpetrate, especially significant ones, than the 
kinds of conventional attacks that they are used to 
perpetrating.
    And of course, there has been a lot of effort to try and 
improve our export controls, border surveillance, other kinds 
of activities to try and inhibit and deter such activities. So 
I think it is probably a complex of a variety of different 
things that have been happening since 2001.
    Mr. Scott. How would you describe for us, and as a matter 
of fact, I would like for you to describe for us how the 
Federal Government works, from a standpoint of inter-agency 
cooperation? How do you coordinate what you do with other 
agencies, and what are the other agencies who work together 
with you to form this very strong front line defense of our 
country from a biological attack?
    Mr. Van Diepen. Well, that, of course, is something that is 
a center piece of the President's new strategy to improve that 
inter-agency coordination.
    But in terms of the international activities that we engage 
in, everything that we do is very thoroughly inter-agency 
coordinated. In fact, many of the implementers of the State 
Department programs in this area are, in fact, other agencies 
such as HHS and Agriculture.
    There are various standing working groups where we try and 
coordinate and de-conflict our various programs. To help 
implement the strategy, the National Security Counsel staff has 
put together an ongoing effort to come up with detailed inter-
agency implementation plans for each aspect of the strategy and 
those are in development right now.
    Also, we have in place a new special coordinator for 
cooperative threat reduction in the Department, Ambassador 
Bonnie Jenkins. And part of her job is to make sure that State 
Department programs are well coordinated with those of other 
agencies, as well as with similar activities that other 
countries conduct.
    Mr. Scott. Now let me ask you about the funding level. Do 
you believe that we, in Congress, are giving you the necessary 
amounts of resources to get the job done; or are there areas or 
is there more funding that you feel we need to provide for you?
    Mr. Van Diepen. Well, Congressman, I suppose every 
bureaucrat would be remiss if he did not say that he could use 
more money.
    But I think realistically, in terms of the absorptive 
capacities of a lot of the countries that we are dealing with, 
in terms of trying to make sure that we apply our resources in 
places where there are clearly identified threats, and 
recognizing that there are all sorts of other tradeoffs and 
opportunity costs involved in these decisions, I think that we 
have got, you know, sort of a fair and reasonable amount of 
money allocated to these activities.
    And I would say that Congress has been very supportive of 
the BEP and, in fact, has had certain earmarks to make sure 
that certain amounts of money are spent on BEP.
    Mr. Scott. Let me ask you about our level of international 
cooperation. If you could describe for us what that is, how 
would you rate it, and where are the weak links around the 
globe that we have to be concerned about--what countries, what 
areas are our most significant worries?
    Mr. Van Diepen. Well, I think probably the areas of the 
highest direct threat potential are the areas that we in fact 
are working in in the BEP, because it is a threat directed 
program.
    Places where you have got a nexus of terrorist activity and 
substantial biotechnology--places in the Middle East, South 
Asia--sort of fall into that category. But bioterrorism is 
something that, for better or for worse, can happen almost 
anywhere, almost any country has within its borders a hospital 
or a scientific facility that has pathogens.
    And so where we can, we are reaching out to try and improve 
things in those areas, as well. So we have a new focus, for 
example, in trying to do some operations in Africa and Latin 
America, to help deal with that aspect of the problem, as well.
    Mr. Scott. And one of the areas that, as I mentioned, I am 
very much concerned about, of course, as the subcommittee 
chairman for Food Safety in Agriculture, is to keep our food 
supply safe.
    Does your agency work in collaboration with our Agriculture 
Department, especially in very critical areas where we are 
moving forward to help with this in the area, for example, 
animal ID, which we feel is very important? And how do you feel 
about that? Do you believe that we should have mandatory animal 
ID; or should we continue to leave that on a voluntary basis?
    Mr. Van Diepen. Well, Congressman, I would have to say on 
that specific issue, that that really, you know, has not fallen 
into my area of responsibility. So I am not sure I am in a 
position to give you a meaningful response.
    But on the larger question, I am very glad that you 
identified the potential threat of biotechnology against the 
food supply; because oftentimes, the discourse on this issue 
only focuses on the human aspect of it. And because of the 
indirect human aspect and the very significant economic impact 
of the agricultural part, I am very glad that you raised that.
    Because of that, that has always been a focus of our 
activities. Whether it is securing dangerous pathogens, those 
have always included pathogens against food crops and 
livestock. Whether it is building a culture of safety and 
security, we include the animal agriculture health communities 
in those activities.
    Mr. Sherman. The time of the gentleman has expired. Let me 
now recognize Mr. Royce from California, our ranking member.
    Mr. Royce. Thank you, Chairman Sherman. At least one of our 
witnesses today is going to speak of the importance of 
intelligence and the inadequacy of our intelligence in 
bioterrorism. And this is an issue that the chairman and I were 
very involved in at the time. But in 2007, the intelligence 
community produced a National Intelligence Estimate, which you 
were certainly involved with. You were the National 
Intelligence Officer for Nonproliferation.
    That NIE concluded with high confidence that Iran had 
halted its efforts to develop nuclear weapons in 2003; and it 
assessed with moderate confidence that Iran had not re-started 
this program.
    In a report last month, the IAEA recited a number of 
concerns about military related nuclear activity in Iran; and 
asserted that these activities seem to have continued beyond 
2004.
    Now at the time the NIE was released, the chairman and I 
denounced it as naive and harmful; and you were centrally 
involved in that. I remember at the press hearing with Chairman 
Brad Sherman, holding up the Time magazine cover that 
exonerated the Iranians; exonerated them on the basis of your 
assessment, which turned out to be wrong.
    My question is, what went wrong? Is now the time maybe to 
re-visit the issues addressed in the NIE? I do not think the 
stakes could be any higher. Let me ask you that question.
    Mr. Van Diepen. Well, thank you, Congressman. I guess the 
starting point on that is, of course, that is not the business 
I am in any more. But I think the fair way to answer that 
question is, the intelligence community right now is preparing 
a follow-on National Intelligence Estimate on that subject.
    And I think the thing to do is to wait for that to come out 
and see the extent to which that assessment differs from the 
one in the 2007 NIE. I would suggest that that should probably 
be the basis of deciding what was right and what was wrong.
    Mr. Royce. I think the covert illegal enrichment facility 
at a military base outside Qom, that was disclosed last fall to 
all the world. So I think the case is pretty clear. Surely you 
agree that something went wrong, in your assessment.
    Mr. Van Diepen. Well, and one thing that is inherent is by 
definition. Information comes in after you publish. The 
intelligence business is one of working with the information 
you happen to have at hand at any particular time; comparing it 
to the old information, and trying to then project both what is 
actually going on, since objective reality is difficult to 
determine, and what you think is likely to happen in the 
future. And by definition, new information keeps coming in. It 
does not respect publication dates of NIEs.
    Basically, in the intelligence community, you are in the 
business of trying to predict the outcome of a movie that you 
only get to see glimpses of. You do not know how long the movie 
was going on before you started glimpsing. You do not know how 
long the movie is going to be going on; and half of your 
glimpses actually come from other people's glimpses of the 
movie. So you have to sort of put all that together and put 
together a picture.
    I think that NIE was very clear and very responsible in its 
use of so-called intelligence trade craft--confidence levels; 
descriptions of alternative scenarios. In fact, I think there 
were eight alternative scenarios beyond the main line estimate 
that were included in that assessment. There was a very 
extensive discussion of, what if we are wrong; how could we be 
wrong?
    Mr. Royce. I think part of your argument basically was, the 
burden of proof to determine proliferation activity should be 
as high as in the average U.S. court room; at least that is the 
way I recall your assessment of the situation.
    As one press report said afterwards, there was never a 
sanction that Van Diepen liked, never, said one official. It 
was a point of religion for him. He thought anything we did 
outside of teacup diplomacy was counterproductive and wrong.
    There are decisions we are going to make, in terms of 
sanctions, on the basis of assessments which you helped make, 
that frankly turned out to be wrong. I would like to just add a 
couple of other concerns I have.
    I brought up Russia. The WMD Commission noted that over the 
last several years, Russia has been less and less interested in 
cooperating with U.S. Biological Threat Reduction Programs that 
had some success in re-directing former Soviet bioweapons 
scientists to peaceful activities.
    The commission expressed concern that ``the large cadre of 
former bioweapons scientists remains a global proliferation 
concern.''
    You barely mentioned Russia in your testimony. And I was 
going to ask you, can you explain the Russian position and the 
United States response; and is there still a role for these 
programs?
    Mr. Van Diepen. Thank you, Congressman; first of all, I do 
not think I can let go the first part of what you had to say; 
and frankly those quotes against me are utter nonsense.
    I, in fact, have been involved in sanctioning more entities 
and more countries for more acts of proliferation than any 
human being on the planet. So I am quite comfortable with----
    Mr. Royce. But the bottom line, for the chairman and me, 
who were involved on the other side of the table from you in 
your last position, was a very, very different conclusion about 
what was going on in Iran and what we should do about it. So we 
just disagreed at the time.
    I think that all that is in the papers subsequently bear 
out the chairman's and my observations on this. But you have 
got your opinion and I have got mine. But let us go to the 
question on Russia and the role of these programs.
    Mr. Van Diepen. I am very happy to do that. Anyway, yes, 
clearly, there is still an issue. You know, there is a fair 
amount or a substantial amount of biological weapons applicable 
material, equipment, and expertise in Russia. And you, in your 
opening statement, mentioned some examples of that being the 
case.
    And one of the long-standing objectives of our various 
engagement programs, including the Science Centers Program, the 
BEP and others, has been to work with the Russians to try and 
put in place better barriers to make sure that that expertise 
does not go to BW programs in other countries or to BW 
terrorism.
    You know, Russia now, however, is different than the Russia 
we dealt with in the early 1990s, in the sense that it is much 
more economically viable than was the case before. It is much 
more nationalist and resurgent than it was before.
    You know, frankly, the Russians are less interested in 
looking like they are supplicants and recipients of aid, than 
looking like they are partners. And they are less interested in 
looking like they are a potential source of proliferation; than 
they are looking like they are partners.
    And so the challenge that we face in continuing to pursue 
these programs in Russia, which we are doing and which we think 
we still need to do--because again, that repository of 
expertise is, you know, unquestionably there--is to try and 
work within the parameters set by the current Russian 
Government and the current situation within Russia, to continue 
to try to make progress.
    Mr. Royce. Let me ask you one last question. Why is it that 
a bi-partisan panel gave an ``F'' grade--there was a bi-
partisan panel of nine experts. Why were they wrong; the WMD 
Commission in January, that gave you that grade? What grade 
would you give yourself, I would ask?
    Mr. Van Diepen. Well, as I recall, the ``F'' grade mostly 
focused on the domestic side of things which, of course, the 
State Department does not have responsibility for. As the 
chairman noted in his opening statement, the State Department's 
end of this actually got relatively high grades.
    I guess what I would say is that it should be less of an 
issue of grades than to realize that this is an extremely 
daunting and challenging problem. The fact is that since 
bioterrorism ranges from everything from a disgruntled 
individual putting salmonella in a salad bar; all the way up to 
an all-out, strategic level attack by another country using 
ICBMs filled with genetically engineering pathogens.
    There are a lot of potential opportunities for a biological 
attack against the United States. And because we are 
sophisticated and inter-dependent with other countries, there 
are a lot of vulnerabilities that we have.
    And so, given all those opportunities for potential threat, 
given all the vulnerabilities that we have, it is a very 
daunting task to try and totally protect ourselves against 
every aspect of such a threat.
    Mr. Royce. Thank you very much; thank you, Mr. Chairman.
    Mr. Sherman. Thank you; before I recognize Ambassador 
Watson, just a minute of personal privilege, since my name was 
so mentioned.
    I agree with the ranking member. I may even overstate his 
position by saying that the NIE was perhaps the worst example 
of a political document masquerading as an intelligence 
document.
    I do not know the degree to which our witness was involved 
in it. But we, in the Legislative Branch, are utterly helpless 
when it comes to missing the facts or mischaracterizing the 
degree of confidence. But it has the facts, and so we have to 
accept what the Executive Branch does in those two areas; and I 
cannot quibble with the NIE on that.
    But what makes a document political is where certain facts 
that are important are brushed off to the side, and facts that 
are not important are emblazoned as major reasons to affect 
U.S. policy. In that NIE, the most important fact was pushed to 
the side and mentioned in the first footnote, and most of the 
document, including the first three paragraphs, were all 
focused on facts that not only turned out to be irrelevant but 
were obviously irrelevant at the time.
    The key to developing a nuclear weapon is getting the 
fissile material; and only a political document would focus on 
other, far less important aspects of a nuclear program.
    With that, I yield to the gentlelady from not only 
Hollywood but so many other outstanding neighborhoods in the 
Los Angeles area.
    Ms. Watson. Which will soon be addressed by--thank you so 
much, Mr. Chairman. Speaking of other nations and continents, I 
would like to go to Africa and talk about the October 2005 
Kampala Compact, resulting from an African meeting.
    It states that it is illegitimate to address biological 
weapon threats without simultaneously addressing the enormous 
health crisis in Africa, such as HIV AIDS, TB, Malaria, and 
other infectious diseases.
    So what can the United States do to help African nations 
achieve the duo goals of improved global health and 
biosecurity? Can you just bring us up on that?
    Mr. Van Diepen. Well, to start off with, I guess I would 
not use the descriptor illegitimate. But certainly, we have 
always tried to take advantage----
    Ms. Watson. Oh, that was the State in quoting from the 
compact. But clearly we understand that we can get 
nonproliferation value out of help in global health; just as 
there can be global health value gotten out of doing BW 
nonproliferation.
    And so as I indicated in my testimony, you know, we are 
looking for opportunities to do both; and particularly where we 
are trying to promote improved disease surveillance, improve 
public health--you know, we are doing that specifically because 
it also provides an important collateral benefit to protect us 
against potentially man-made biological threats.
    One example of an activity that we have conducted--in 
cooperation with DoD's cooperative threat reduction program and 
with the United Nations, we organized an African Regional 
Workshop on biosafety and biosecurity. Experts from 20 African 
nations discussed the kinds of assistance they need in 
implementing better biological controls, pursuant to U.N 
Security Council Resolution 1540.
    And we work not only with other agencies; but also the 
World Health Organization and the Food and Agriculture 
Organization. So I think that is a good example of how we are 
trying to do exactly that.
    Ms. Watson. Well, thank you; because the need is so great, 
as you know, on the continent. In addition to an overarching 
Federal strategy, many agencies have developed their own 
strategic documents to address their responsibilities with 
respect to bioterrorism threats.
    Coordinating these strategies across multiple agencies is a 
challenge. So how is State working to harmonize its strategies 
with other agencies, so as to reduce unnecessary duplication 
and close security gaps; and let me just go on to my next. You 
can answer them all together.
    How did State determine the optimal level of funding 
against bioterrorism threats; and are there any areas that you 
feel are currently under-resourced or should otherwise be 
emphasized?
    Mr. Van Diepen. Thank you, Congresswoman; in terms of 
coordination, I think the two main things we are doing is 
participating in the National Security Council-led process to 
come up with specific implementation plans for the President's 
new bio-strategy.
    And then we participate and run a number of standing inter-
agency working groups that deal specifically with the kinds of 
international assistance programs like our Biosecurity 
Engagement Program.
    In addition, under this administration, a new coordinator 
for cooperative threat reduction has been appointed, Ambassador 
Bonnie Jenkins. She works to make sure that our programs are 
well coordinated with those of other agencies and with other 
countries.
    In terms of determining the levels of funding, you know, 
that is a very complex issue. But I think the critical thing is 
what we try to do; to determine where we put that funding, 
based on a very clear assessment of the risk, informed by the 
U.S. Government scientific experts and by the intelligence 
community. So we are trying to identify and address the highest 
risks as a priority in our funding. Then, I am sorry, the last 
question?
    Ms. Watson. The last question, are there any other areas 
that you feel are currently under-resourced or should otherwise 
be emphasized? And I want to just ask, do you work with NGOs or 
do you work with their State Departments in these various 
countries?
    Mr. Van Diepen. A mix--we work with not just State 
Departments; but Ministries of Health, Ministries of 
Agriculture, as well as NGOs and international organizations 
like the World Health Organization.
    Ms. Watson. Well, as we look at AIDS and look at the 
funding we have given, we are finding that a small amount of 
money in a village can go a long way when you use the NGOs.
    They know the customs, traditions. They know the people and 
how they respond. And I am finding that it looks like when we 
work through the actual inhabitants of a particular area, $1 
goes a long way. So if you can respond to how the State 
Department looks at that, and will we do more business with the 
NGOs?
    Mr. Van Diepen. Again, a critical part of this new strategy 
is the idea of international partnership, and that is 
international partnership not just with countries; but with 
relevant organizations within countries.
    Ms. Watson. I thank you, and I yield back.
    Mr. Sherman. Thank you; I will take a minute to address the 
witness's statement that he has done more sanctions than anyone 
else. That may, in fact, be true; but it is pitiful. You are 
comparing yourself, for example, to the German Foreign 
Ministry. Their idea of sanctions is, let German businesses do 
everything they want.
    You are comparing yourself to the rest of the State 
Department. You are basically bragging about being the tallest 
jockey at the race.
    We are now being told by the State Department that they 
favor smart sanctions, by which they mean dumb sanctions, which 
is to say they are in favor of sanctions so long as it does not 
actually hurt the economy of Iran.
    And in fact, no one at the State Department has been able 
to point to a single publicly traded corporation anywhere in 
the world that is selling for one cent per share less as a 
result of American sanctions. So our idea is we are for 
sanctions as long as they do not inconvenience anyone or at 
least they do not inconvenience anyone that has the slightest 
amount of political clout.
    My best example is that we continue to import caviar from 
Iran because why should American Epicureans have to make due 
with Northern Caspian caviar? So you may be the tallest jockey. 
But that is hardly a reason for personal celebration.
    With regard to these hearings, putting aside the state 
sponsors of terrorism countries and looking at the countries 
that we would hope would be cooperative, which country is least 
cooperative, in terms of controlling biological proliferation; 
and is the most troublesome, as far as complying with U.S. 
Security Council Resolution 1540?
    Mr. Van Diepen. I am not sure that----
    Mr. Sherman. Aside from the state sponsors of terrorism, 
they are all doing a great job?
    Mr. Van Diepen. Well, I think it is less an issue of being 
troublesome, than the fact that for a lot of countries, the 
1540 mandates are a much lower priority than things like, you 
know, keeping the population fed, you know----
    Mr. Sherman. Okay, which country is giving the lowest 
priority to meeting its obligations under Resolution 1540?
    Mr. Van Diepen. Again, I would not single out a particular 
country. But clearly, in places like sub-Saharan Africa, you 
know, you have got countries that, again, just are not in a 
position to put that kind of priority on that.
    Mr. Sherman. Of those countries that are at least in the 
middle tier of wealth of countries, which ones are giving the 
least cooperation or priority to Council Resolution 1540?
    Mr. Van Diepen. I think probably the thing to do is to try 
and get back to you with a considered answer to that, Mr. 
Chairman. Off the top of my head, I am not sure I am able to.
    Mr. Sherman. Okay, now of those countries, how long will it 
take for you to get back to us with an answer on that?
    Mr. Van Diepen. A week?
    Mr. Sherman. A week is fine. Of the countries that are 
state sponsors of terrorism, which is the greatest biological 
terrorism concern, or biological weapons concern?
    Mr. Van Diepen. Well, I think because of the nexus with 
terrorism, I think Iran would probably be near the top of my 
list of concerns. Because you have got the issues not only of 
the potential nation-state angle of that; but because they are 
a state sponsor of terrorism, and have provided other kinds of 
weapons to terrorists groups, you know, they would certainly 
be, for me, a concern.
    Mr. Sherman. I mean, there are two areas in the State 
Department. One is trying to coordinate our response to the 
spread of disease, such as avian flu. The other is your 
efforts. The pathogens do not even know whether they were 
deliberately created or not.
    How closely do you work in a coordinated way, so that we 
can respond internationally to the outbreak of a pathogen, 
whether it is intentional or unintentional?
    Mr. Van Diepen. That is exactly a key part of the 
philosophy behind much of our Biosecurity Engagement Program 
activity; the idea that if we can assist in the detecting, 
surveillance, and fighting of disease regardless of its origin 
by definition, we are helping ourselves out in the biological 
weapons area.
    Mr. Sherman. Now Indonesia has refused to let any of the 
developed countries in the world get adequate samples of avian 
flu. They have taken the peculiar position that this is a 
property right of theirs; which means they claim it as property 
on the theory that they can get money for it.
    But all legal systems provide that if an animal is your 
property and it causes damage, you are responsible for the 
damage; and a pathogen is an animal.
    So from that standpoint, is Indonesia willing to claim not 
only the rights of ownership of these strains of avian flue; 
but also to claim responsibility for the harm done by the avian 
flu; and have they adequately set up reserves to reimburse the 
world for the harm that may be done by the avian flu and their 
failure to provide developed nations with the samples necessary 
to develop a vaccine?
    Mr. Van Diepen. I am really not in a position to answer 
that question, Mr. Chairman. I just am not aware of what the 
answers to those questions might be.
    Mr. Sherman. Well, it is pretty apparent that we could see 
hundreds of thousands of innocent deaths because of the 
position of the Indonesian Government; a government where tens 
or hundreds of thousands of people were saved by the world 
aiding Indonesia after the tsunami. And the fact that the State 
Department is not making a bigger deal of this non-deliberate 
possible Indonesia-caused holocaust is surprising to me; and I 
will look forward to seeing the State Department making a 
bigger deal of this issue.
    With that, I do not think there is interest in a second 
round with our first panel. After all, America does not 
torture; and accordingly, we will allow you to leave.
    [Laughter.]
    Mr. Sherman. Let us bring up the second panel; and thank 
you for your testimony.
    First, I would like to introduce Barry Kellman, president 
of the International Security and Biopolicy Institute. Mr. 
Kellman is a professor of international law and director of the 
International Weapons Control Center at DePaul University 
College of Law.
    He has prepared for the subcommittee a report on United 
States foreign policies and programs to reduce bio-dangers. I 
want to thank you for that work.
    Our next witness is Jonathan Tucker, who is a senior fellow 
at the James Martin Center for Nonproliferation Studies, the 
CNS, of the Monterey Institute of International Studies, where 
he specializes in the control of biological and chemical 
weapons. He joined CNS's main office in March 1996 as founding 
director of the Chemical and Biological Weapons 
Nonproliferation Program.
    And finally, we will hear from Stephen Rademaker. I will 
try to pronounce your name correctly. It is not that tough. In 
2008, he was appointed by the congressional leadership to the 
U.S. Commission on the Prevention of Proliferations of Weapons 
of Mass Destruction and Terrorism. He currently serves as 
senior counsel for BGR Group Government Affairs; Mr. Kellman?

  STATEMENT OF BARRY KELLMAN, J.D., PRESIDENT, INTERNATIONAL 
                SECURITY AND BIOPOLICY INSTITUTE

    Mr. Kellman. Chairman Sherman, Congressman Scott, thank you 
for the opportunity to discuss policies for preventing for the 
violent infliction of disease.
    Envision 10 terrorists spreading highly weaponized anthrax 
in 10 cities around the world: Nairobi, Warsaw, Tokyo, Mexico 
City, et cetera. Assume not a single American is touched by any 
of these attack, none of which happen on American soil. Would 
anyone suggest that we are unharmed?
    If instead, a smallpox pandemic is ignited, killing perhaps 
millions worldwide, if Americans are effectively immunized, 
does that mean that we are okay?
    If I might, Mr. Chairman, I have to take issue with your 
opening statement that biological weapons will not kill more 
people than any nuclear weapon. I simply disagree, and we can 
come back to that, if you like.
    Bioattacks that devastate allies, transform developing 
societies into chaos, stop transport and trade cause trillions 
of dollars of losses; and so worldwide panic would 
catastrophically wound the United States.
    As to biothreats, Homeland Security is international 
security and vice versa. We cannot wall ourselves off from 
worldwide bioattacks.
    Mr. Chairman, Congressmen, global preparedness must be a 
high foreign policy of the United States, working with our 
allies and the international system. By global bio-
preparedness, I mean having a global network of stockpiled 
medicines, linked to delivery systems, to get them where they 
are needed quickly, with effective plans to ensure their 
distribution.
    A principal value of global bio-preparedness is deterrents. 
Why weaponize pathogens to populations can be effectively 
immunized or treated. The best outcome of global bio-
preparedness is having medicines and delivery capabilities that 
are ready but never used; precisely because our enemies cannot 
advance their horrific goals by committing bioattacks.
    Moreover, allow me to say as the lead author of the Kampala 
Compact, global bio-preparedness can and must be a boon to 
public health. Global bio-preparedness is, in effect, a highway 
system. Once built, it can carry any medicines for any diseases 
rapidly and effectively.
    Consider the diplomatic implications of the United States 
making global bio-preparedness a top policy priority, as the 
United States approaches the seventh review conference of the 
Biological Weapons Convention next year. Strengthen security 
from biothreats; strengthen the convention; strengthen global 
public health--altogether, exercise U.S. leadership for 
multiple benefits.
    But there are challenges. In small part, there is a supply 
challenge; having sufficient drugs for the spectrum of 
potential agents. But at least with regard to anthrax 
antibiotics and vaccines, there is vast, untapped capacity.
    The greater challenger is delivery. If we turn to the 
hypothetical anthrax in tent cities around the world. The white 
powder must be collected and sent to diagnostic facilities for 
analysis. Once confirmed as anthrax, vaccines and antibiotics 
must be transported perhaps thousands of miles to the target 
site, where they must be dispensed to victims. All this must 
happen in less than 72 hours; outside perhaps two dozen 
countries in the world, mere fantasy.
    Of greater significance, I posit, is that the are legal 
potholes scattered all over this topic. Allow me to highlight a 
mere handful.
    There are legal challenges that disincentivize the bio 
defense sector from participating. Licensing requirements vary 
radically from country to country. How should medicines for 
weaponized pathogens be tested? What standards are there for 
emergency use authorization?
    Also, there is the prospect of ruinous liability for the 
manufacturers of such medicines, if they have adverse 
consequences. These issues must be resolved now, if we want the 
private sector to supply a bio-preparedness network.
    Two, there are legal challenges associated with stockpiling 
medicines. Regional stockpiling requires binding agreements, so 
that victimized nations can get what they need, when they need 
it. Also, stockpile managers must have proper authority for 
maintaining the surety of their contents.
    Three, there are legal challenges associated with delivery. 
What carriers will be involved? What are their rights and 
responsibilities? Who is authorized to decide how to allocate 
scarce supplies?
    A clear command and control architecture is imperative. 
Without elaborate planning, what will be the authority of 
public health officials to commandeer resources and triage 
patients? How will medical records be accessible? How will 
quarantines be enforced?
    Mr. Chairman, in the wake of bio attacks, we cannot 
tolerate delay, as officials question their legal authority to 
act. We would not tolerate such delays, challenges to domestic 
preparedness; and our Government deserves commendation for 
addressing many of these challenges inside the United States 
since 9/11.
    To call domestic preparedness a failure unjustifiably 
derogates the enormous effort of dedicated public servants, and 
suggests to our allies that they should not emulate our example 
when precisely the opposite message is required and 
appropriate.
    Mr. Chairman, global bio-preparedness is not about 
generosity. It is about protecting the American people from 
international threats in an inter-connected world. Taking the 
benefits of our experience and capacity to the international 
community epitomizes what America does best; promoting the rule 
of law.
    By building global bio-preparedness, we would engage all 
nations that share concern about biothreats. We would advance 
public health readiness, and we would establish a security 
framework upon which additional positive initiatives can be 
built for meeting evolving threats.
    Moreover, we would accelerate the development of 
biotechnology with positive implications for our economic 
recovery.
    I ask this subcommittee to consider three questions. One, 
does the State Department have all the authority it needs to 
plan, negotiate and implement global bio-preparedness?
    Two, does the State Department have the authority, 
resources, and capacity to develop optimal answers to the many 
legal challenges confronting global bio-preparedness? If not, 
how can these issues be addressed?
    Three, I have already mentioned the importance of taking 
global bio-preparedness to the BWC. But there are many 
opportunistic venues for advancing this objective, including 
the U.N. Security Council, NATO, the World Economic Forum and 
the G8. How precisely to do this is a matter for the 
subcommittee to consider.
    Finally, allow me to ask you all, what would Congress do, 
in the wake of biocatastrophies that relegate every other 
policy priority to insignificance? What would Congress do to 
prevent a second series of attacks? Amid mass deaths and huge 
economic losses that demonstrate the horrific implications of 
procrastination, what will you do?
    I respectfully ask you not to wait for the first attacks to 
prepare for the second attacks. Thank you very much for your 
attention.
    [The prepared statement of Mr. Kellman 
follows:]Barry Kellman 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 STATEMENT OF JONATHAN B. TUCKER, PH.D., SENIOR FELLOW, JAMES 
MARTIN CENTER FOR NONPROLIFERATION STUDIES, MONTEREY INSTITUTE 
                    OF INTERNATIONAL STUDIES

    Mr. Tucker. Chairman Sherman and distinguished members of 
the subcommittee, thank you for the invitation to appear before 
you today.
    Last November the Obama administration released a National 
Strategy for Countering Biological Threats, containing broad 
guidelines for U.S. policy. The challenge facing the 
administration and Congress in the months ahead will be to 
translate these guidelines into a set of concrete policy 
initiatives and to give them the political and budgetary 
support they require for effective implementation.
    A key strength of the national strategy is that it 
integrates public health and security concerns into a single 
paradigm. This approach makes sense from a policy standpoint 
because it promotes efforts to strengthen global public health 
infrastructure in a way that bolsters U.S. defenses against 
both natural epidemics and bioterrorist attacks.
    The national strategy also emphasizes the potential risks 
associated with emerging biotechnologies. Synthetic genomics, 
for example, provides the capability to synthesize long DNA 
molecules from scratch and assemble them into the genome of a 
virus. This ability raises security concerns because it could 
potentially enable sophisticated terrorist groups to circumvent 
stringent controls on select agents of bioterrorism concerns, 
such as Ebola virus. Because the gene synthesis industry is 
international, the United States will have to work with other 
countries to harmonize measures to prevent the misuse of this 
technology.
    Other international measures to enhance biosecurity revolve 
around the Biological Weapons Convention, which remains the 
cornerstone of efforts to prevent biological weapons 
proliferation and terrorism.
    The Obama administration's assessment that biological 
verification is not currently feasible is no excuse for 
inaction or complacency. To move beyond the legacy of the 
failed BWC Protocol, a package of bold, innovative measures 
will be needed to build confidence in compliance and to deter 
violations.
    One critical element is to increase the transparency of 
biodefense research programs, which have expanded dramatically 
in the United States and other countries since the terrorist 
attacks of 2001 and could theoretically serve as a cover for 
offensive bioweapons development.
    Enhanced transparency is in the United States' interest for 
two reasons. First, it offers greater insight into the BWC-
related activities of other countries, providing greater 
confidence that they are complying with their treaty 
obligations. Second, it mitigates international suspicions 
about U.S. biodefense programs that might drive other nations 
to pursue questionable research.
    Another useful approach to increasing the transparency of 
BWC-related activities is to build cooperative relationships 
between biodefense scientists and institutions in the United 
States and those in countries of proliferation concern.
    In recent years, the Defense Department's Biological Threat 
Reduction Program and other U.S. biological engagement programs 
have reduced their activities in Russia because of bureaucratic 
and political difficulties in dealing with the Russian 
Government. Nevertheless, these engagement efforts are crucial 
for transparency and should be reinstated.
    Another important biosecurity measure lies with the United 
Nations. Because of the failure to conclude the BWC Protocol, 
the only option for investigating an alleged use of biological 
weapons is a long-standing mechanism under the auspices of the 
U.N. Secretary-General.
    At present, however, the U.N. lacks the resources to 
rapidly field teams of suitably trained and equipped 
investigators. To remedy this problem, the United States should 
lead efforts to update and strengthen the Secretary-General's 
mechanism. This capability would have an important deterrent 
effect by making it more likely that a covert biological attack 
will be attributed to a state or non-state actor.
    Yet another way to strengthen global biosecurity is to 
improve systems for infectious disease surveillance and 
response. In today's globalized world, an outbreak of serious 
epidemic disease anywhere in the world poses a potential risk 
to Americans here at home.
    Global networks for infectious disease surveillance and 
response provide an extended defense perimeter for the United 
States by making it possible to detect and snuff out epidemics, 
whether natural or human-caused, before they reach our shores. 
But existing disease-surveillance networks still contain many 
gaps in coverage, preventing the timely detection and 
containment of outbreaks close to the source.
    The International Health Regulations, which were revised in 
2005, require the member countries of the World Health 
Organization to report in a timely manner all public health 
emergencies of international concern that could potentially 
affect more than one country. Nevertheless, because many 
developing countries lack the financial and technical resources 
to establish effective national disease surveillance and 
response capabilities, the United States and other advanced 
countries must be prepared to help out.
    A critical event for advancing all of these biosecurity 
objectives will be the Seventh Review Conference of the 
Biological Weapons Convention, which will convene late next 
year in Geneva, Switzerland.
    This comprehensive review of the treaty's implementation 
will be a make-or-break political opportunity for the United 
States. But the U.S. delegation will also have to navigate some 
treacherous political shoals.
    It is likely that several BWC member states, including Iran 
and Russia, will seek to revive the protocol negotiations as a 
means to pursue their negative agenda of attempting to weaken 
the convention itself. To block these efforts, the United 
States will have to offer an alternative package of bold and 
compelling measures to strengthen the BWC.
    Given the high stakes involved in the review conference, it 
is imperative that the State Department resolve the current 
internal dispute over which Bureau is responsible for the BWC 
and begin preparing for next year's meeting as soon as 
possible.
    Another important task for the Seventh Review Conference 
will be to address the institutional deficit of the BWC. The 
last review conference in 2006 established an Implementation 
Support Unit consisting of three people at the U.N. Office in 
Geneva. But this entity has limited authority and a temporary 
mandate that must be renewed by member states in 2011. The 
Obama administration should push to make the unit permanent, 
while expanding its staff and responsibilities.
    In conclusion, implementing the National Strategy for 
Countering Biological Threats will require the White House to 
give the same level of political attention to biological 
security that it has devoted to crafting and promoting its 
nuclear security initiatives. It will then be up to Congress to 
review the administration's agenda and pass legislation and 
funding needed to implement it effectively. Thank you.
    [The prepared statement of Mr. Tucker 
follows:]Jonathan Tucker 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sherman. Mr. Rademaker?

   STATEMENT OF THE HONORABLE STEPHEN G. RADEMAKER, MEMBER, 
  COMMISSION ON THE PREVENTION OF WEAPONS OF MASS DESTRUCTION 
PROLIFERATION AND TERRORISM, SENIOR COUNSEL, BGR GROUP (FORMER 
  ASSISTANT SECRETARY OF STATE FOR INTERNATIONAL SECURITY AND 
                       NONPROLIFERATION)

    Mr. Rademaker. Mr. Chairman, Congressman Royce, and members 
of the subcommittee, I appreciate the opportunity to again 
appear before your subcommittee.
    I served as one of the House appointees on the Commission 
on the Prevention of Proliferation of Weapons of Mass 
Destruction and Terrorism. Therefore, I especially welcome the 
opportunity to appear here to report to you and the other 
members of the subcommittee on the findings and recommendations 
of our commission.
    I have a prepared statement, which I have submitted for the 
record; and mindful of your observation that we do not condone 
torture in America, I will not sit here and read my prepared 
statement to you. Rather, I will summarize it. I also have 
copies of our commission report, which I would be pleased to 
distribute, if you have a clerk who wants to bring them to you. 
They are sitting right here.
    Mr. Sherman. Do you have enough copies for all members of 
the subcommittee?
    Mr. Rademaker. I have about a dozen copies, sir.
    Mr. Sherman. That will cover the whole subcommittee, even 
those who are not in attendance; thank you.
    Mr. Rademaker. Yes, I have them.
    The mandate of our commission extended to all weapons of 
mass destruction. But in our work, we focused on biological 
weapons and nuclear weapons, because it was our conclusion that 
those were the two classes of weapons of mass destruction that 
would most likely be used by terrorists if there is a WMD 
attack by terrorists against the United States.
    As I think you observed earlier in your opening remarks, 
one of our conclusions was that as between biological and 
nuclear weapons, we thought the greater likelihood was that 
biological weapons would be used by terrorists in any WMD 
attack on the United States.
    At the outset of my remarks, I want to stress a key point 
that informs the rest of our commission's analysis. That is 
that nuclear weapons and biological weapons are very different. 
As a nation, we spend a lot more time thinking about nuclear 
weapons and the nuclear weapons threat; and a lot less time 
thinking about biological weapons.
    If we apply some of the lessons that we have drawn from the 
nuclear area to the biological area, we will make some big 
mistakes. So it is important to bear in mind the differences 
between the two.
    The most important difference is that nuclear weapons 
inflict their damage the moment they are used. The destruction 
is immediate. It is irreversible. Mitigation measures are of 
extremely limited utility in dealing with the consequences. The 
damage has been done.
    Biological weapons, on the other hand, do not inflict 
damage immediately. The damage will manifest itself fairly 
quickly. But there is a window during which mitigation measures 
can minimize, and if done properly, perhaps even eliminate the 
physical damage caused by a biological weapons attack.
    That window is of critical importance to us, and it affords 
an opportunity to basically reduce the utility of these weapons 
to terrorists or others who might consider using them against 
us. If we can construct a mechanism within our country to 
promptly detect and promptly take steps to counteract a 
biological weapons attack against us, the idea of using these 
weapons against us will be much less appealing to terrorists 
and to others.
    So that was really the principal recommendation of our 
commission: That the United States needs to take advantage of 
that window to make sure that we have measures in place that 
will minimize the consequences of a bio attack.
    The ``F'' grade that our commission gave in its report card 
in January to the efforts of the United States Government in 
this area was really focused on the domestic steps that have 
been taken to build up mitigation measures. Fundamentally, it 
was our judgment that not enough money was being put into the 
development of vaccines and other needed measures to permit us 
to minimize the damage caused by a bio weapons attack.
    Our focus today, however, is in the international area; and 
so I wanted to turn to that issue. As a commission, we looked 
at the question of the Biological Weapons Convention. We judged 
that it remains critically important as part of our 
international strategy for combatting the bioweapons threat.
    Our principal recommendation with regard to the Biological 
Weapons Convention was to re-double efforts to universalize the 
convention; to persuade other governments to adhere.
    The Nuclear Nonproliferation Treaty--today, all but four 
countries in the world have ratified the Nuclear 
Nonproliferation Treaty. The picture is substantially less 
satisfying if we look at the Biological Weapons Convention. 
There is still about 40 or 50 countries that have yet to 
ratify.
    We also looked at the question of the inspections protocol 
that was negotiated during the late 1990s; and as Dr. Tucker 
indicated, something was likely to come back. The Bush 
administration killed the Biological Weapons Convention 
protocol that had been negotiated in the 1990s. But certainly 
efforts will be mounted to revive it.
    As a commission, we considered what the proper policy of 
the United States should be on this question of establishing an 
international inspections regime for biological weapons.
    As you know, this has been a very controversial issue. I 
headed the U.S. delegation to the continuation of the fifth 
review conference in 2002, and this was the focus of the entire 
review conference. Passions ran extremely high on the issue.
    Therefore, to me, it was surprising that within our 
commission, we came to the unanimous conclusion that the Bush 
administration had acted properly in killing the protocol in 
2001, when it announced its policy on the protocol. And we also 
reached the unanimous conclusion that it would be a mistake for 
the next U.S. administration, meaning the Obama administration, 
to agree to revive the inspections protocol.
    I was very pleased to see that the Obama administration 
accepted our commission's advice on this issue. In December of 
last year, Under Secretary Tauscher announced in Geneva that 
the Obama administration will not support the revival of an 
inspections protocol for the Biological Weapons Convention.
    I think this was a difficult decision for the Obama 
administration to come to. I think they were under a lot of 
political pressure to go in a different direction. So I have 
very high praise for them for taking the courageous and correct 
step to defy that pressure and to do what is right on policy 
grounds.
    I see that my time is about to expire, and so I think I 
will stop there and submit myself to your questions.
    [The prepared statement of Mr. Rademaker 
follows:]Stephen Rademaker 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Sherman. I will recognize Mr. Scott first, if he 
prefers.
    Mr. Scott. Let me start where you left off there for a 
moment, Mr. Rademaker; is that correct? The issue of the 
protocols, why do you say we are doing the right thing by 
refusing to engage in the protocols? What are the benefits and 
what are the downfalls for us doing so?
    Mr. Rademaker. Perhaps first I should explain what the 
protocol would be. It would establish an inspections mechanism. 
There would probably be an international organization created. 
It would have inspectors working for it.
    And it would be their mission to conduct regular 
inspections of biological facilities; facilities all over the 
world where biological research is taking place. It would be 
their objective to seek to detect potential violations of the 
Biological Weapons Convention.
    There might also be a mechanism for challenge inspections. 
In other words, if there was a suspicion of cheating on the 
Biological Weapons Convention, there might be a way to dispatch 
inspectors to look into whether those allegations are well 
founded or not.
    On paper, all of this sounds very good. Our concern with 
it--both in the Bush administration and now I think I can 
probably speak for the Obama administration on it because they 
have embraced the policy of the Bush administration--it was our 
judgment that this idea simply would not work in the biological 
area.
    So a great deal of money would be spent. A false sense of 
security would be created. And there were also very 
considerable risks to the U.S. biotechnology industry.
    I do not know if you have ever talked to an executive of a 
biotech firm. But I have never spoken to one of them who, when 
he understood what was being proposed here, did not immediately 
jump to the conclusion that what was being proposed was 
international industrial espionage; that foreign inspectors 
were going to come to his firm to try to steal the intellectual 
property that they were creating.
    I have heard this from so many business executives that I 
am quite confident that we cannot dismiss that concern out of 
hand.
    There was also great concern about false positives; that 
unlike the nuclear area, unlike the chemical area, the things 
that biological weapons inspectors would be looking for--you 
know, an anthrax spore.
    Mr. Scott. Right.
    Mr. Rademaker. These things occur in nature. Highly 
enriched uranium does not occur in nature. If an inspector goes 
to a lab and finds highly enriched uranium, there is not a 
legitimate explanation for that. It did not occur naturally. 
Somebody put it there, and there is a reason why they created 
it.
    In the biological area, when we are dealing with 
essentially germs of one type or another, they could be man 
made or they could be naturally occurring. So the fact that 
inspectors detect something really does not tell you much.
    Mr. Scott. Right; thank you for that explanation. So then 
what alternative do we have? What would you recommend we do in 
place of that, to ensure international compliance with the 
Biological Weapons Convention, if we do not use the protocols? 
What do we do?
    Mr. Rademaker. Our commission's report is full of 
recommendations about what should be done in this area to 
increase assurance and to increase the protections against the 
production of biological weapons.
    The range of measures required mostly are in the area of 
domestic implementation. Other nations need to do the kinds of 
things that we have started doing, but we have not finished 
doing, here in the United States.
    At labs where research in this area is done, we need 
increased protections against diversion of biological material. 
It used to be that you could essentially order this stuff on 
the Internet.
    Mr. Scott. Let me just mention, I want to get another point 
of view. I want to ask Mr. Kellman, because he raised some 
issues about our lacks in this area, and it was very alarming 
in his assessment.
    Do you agree with Mr. Rademaker? Is this the way to go, or 
is there an other alternative to kind of get the international 
compliance?
    Mr. Kellman. The verification protocol would be an 
unnecessary and unproductive use of very limited resources. It 
would help us confirm where biological weapons are not being 
produced. It would not tell us anything about where they are 
being produced.
    So it would give us some security about information that we 
are really pretty secure about without the verification 
protocol. It would not really tell us anything about the 
threats that we face. If I might, Congressman----
    Mr. Scott. Yes.
    Mr. Kellman [continuing]. I gave a presentation at the 
Biological Weapons Convention expert meeting that summer on the 
use of other techniques to detect non-compliance--to verify 
compliance.
    But rather, the important thing, I think, is to detect non-
compliance. International law affords us a number of tools, and 
we do not have to go down the same road. And on this, I think 
all three of us agree. That road is not a productive road. But 
there are other ways that we can think about detecting non-
compliance that could be advanced at the Biological Weapons 
Convention.
    Mr. Scott. All right; thank you very much, Mr. Chairman.
    Mr. Sherman. Thank you; our current nonproliferation policy 
with regard to nuclear weapons is obviously a manifest failure. 
If we continue it, or even if we adopt those changes that are 
currently under discussion in the administration--either of 
those, I think it assures that Iran will have nuclear weapons 
this decade, and that will be the death knell of the NTP.
    I say that only because when you then come kind of 
collectively as witnesses and say our efforts to control 
biological weapons are the under-funded stepchild of our 
efforts to control nuclear weapons, it is indeed harsh 
criticism that our efforts in that area are worse than the 
manifest failure previously mentioned.
    Now, Mr. Tucker, we are dealing with this issue of 
confidence-building measures. The theory is, we provide this 
information voluntarily, more or less. This inspires certain 
countries, say Russian or China, to over-brim with confidence 
and then do less to develop ugly pathogens.
    Now Mr. Rademaker pointed out, this is already a problem 
from an intellectual property perspective. It is also a problem 
with regard to state sponsors of terrorism and terrorist 
groups.
    To what extent would these confidence-building measures 
provide information useful to terrorists and terrorists states? 
Looking at this threat from that angle, the confidence-building 
measures do not do any good. Ahmadinejad is not sitting there 
saying, well, gee, if only they had some confidence-building 
measures, I would not want weapons of mass destruction.
    So how do you confidence-build, vis-a-vis Russia and China, 
while disclosing no information to Iran and North Korea?
    Mr. Tucker. Well, I think you have identified a very 
difficult problem. But I do think the types of information that 
are, for example, included in the confidence-building measure 
data declarations, which are part of the Biological Weapons 
Convention process, are not particularly sensitive. They are 
not providing cookbooks on how to produce anthrax. They are 
simply identifying activities and facilities that are relevant 
to BWC compliance.
    And I think the argument can be made, as I said in my 
presentation, that if the United States demonstrates leadership 
with respect to the transparency of our activities, that puts 
us in a strong position to----
    Mr. Sherman. A strong position to affect Russia and China--
absolutely not a strong position to, in any way, affect the 
terrorists states.
    Mr. Tucker. Russia and China are very serious----
    Mr. Sherman. Yes, I mean, that begs the question that we do 
not have time for; and that is, what is our nightmare 
scenario--Russia or China or the terrorist states? I would say 
if Russia and China want to kill 1 million Americans, they 
already have a guaranteed way to do so without further 
research. It is called nuclear weapons.
    So my concern is these terrorists states confidence-
building measures do nothing to diminish the threat from the 
terrorist states, and do give them a view or at least a road 
map to our counter efforts.
    Mr. Kellman, you say that our domestic preparedness 
deserves a grade far better than ``F,'' and Mr. Rademaker was 
part of the commission that gave it an ``F.'' We have spent $68 
billion on this, and I think you correctly point out that if we 
spent $68 billion and get an ``F,'' other countries are hardly 
going to be inspired. But if it deserves an ``F,'' it deserves 
an ``F.'' How did they get it wrong? What grade to do you give 
our domestic prepardness, and why do you reach such a different 
grade?
    Mr. Kellman. In an op-ed, I used the term ridiculous with 
regard to the ``F'' grade. Let me see if I can justify that.
    I think what the commission was trying to get at was that 
we are extremely vulnerable to bio attacks; that probably each 
of us at this table--certainly, I can envision attacks against 
the United States for which our preparedness would be 
unsuccessful. There is no question about that.
    Mr. Sherman. If I can interrupt, there are two types of 
attacks; those that are not deterrable. I mean, we have no 
counter measures to the Russian nuclear program.
    Mr. Kellman. Right.
    Mr. Sherman. So can you embellish a little and say, ``Are 
there attacks for which we have no defense?,'' and as to which 
we will not be able to effectively retaliate?
    Mr. Kellman. Absolutely, yes; so in the ultimate sense, we 
are not. And unfortunately, Mr. Chairman, I do not think we 
seriously can be prepared. I think that what we have to think 
about here is risk management. I think what we have to think 
about is a combination of prevention measures and preparedness 
measures.
    But it would be folly of me and certainly disingenuous to 
testify before you today to say that there is a way to make 
America safe from biological threats. That cannot be done 
today.
    Mr. Sherman. If I can interrupt, you seem to be saying we 
should grade America on a curve; and if a series of counter 
measures that we have adopted would limit the deaths under a 
particular scenario to 100,000, rather than 100 million; that 
you can not give that an F and say, well, that is 100,000 dead. 
You have to say, well, that is 99.9 million saved.
    Are you saying that our counter measures are useful--not in 
preventing terrible results; but preventing a terrible result 
from being even more catastrophic?
    Mr. Kellman. I am saying that government officials must 
operate in the real world with real conditions. So yes, what 
the United States Government has done since the anthrax attack 
of 2011 [sic], it put us in a substantially better capability 
to save many American lives.
    Mr. Sherman. Mr. Rademaker, obviously, we are not safe. We 
spent $68 billion; but we are not safe. But have we done a good 
job of putting ourselves in a position where the deaths are 
catastrophic; but dramatically less than they would otherwise?
    Mr. Rademaker. Mr. Chairman, I think we have made a good 
start. But there is a enormous amount of work that remains to 
be done; and that was the basis of the commission's grade.
    To be able to mitigate the consequences of a bioattack, we 
need detection capabilities. We need a way to mobilize state 
and local authorities to act in response to the attack. We need 
vaccines, and we need a way of dispensing the vaccines to the 
effected population. We need a national plan for responding, 
should something like this happen.
    Today, we have no national plan. We have invested a fair 
amount of money in this. But the commission found that the 
annual requirement for vaccines in this area, to be fully 
prepared, would come to over $3 billion a year to prepare the 
vaccines.
    Mr. Sherman. That is a year. So you prepare them, and then 
you have got to prepare them again and again.
    Mr. Rademaker. Well, we are spending probably 10 percent of 
that today.
    Mr. Sherman. Okay, the issue did come up. It is a bit 
outside the jurisdiction of the subcommittee. But I am going to 
go further and ask each of you that feel that it is within your 
competence to submit how we would spend $10 billion or $20 
billion a year to prepare. Because it is easy to come in and 
say, well, $68 billion total expenditures is not enough. You 
ought to be spending $168 billion a year.
    I need a budget responsible approach to bio-preparedness; 
and hopefully, for the $10 billion to $20 billion a year, we 
are getting not only a capacity to respond to bio weapons; but 
also to disease pathogens, as well.
    And many of the things that I think we should be doing do 
not cost us money. We would have to go to the American people 
and tell them, you honestly face a threat. In an emergency, 
your government will take the following highly controversial 
actions. You will not be as free the day after a biological 
attack as you were the day before. And as long as none of these 
are said in my district, I am fine.
    So we have to not only spend money on this; but we have to 
spend political capital. We have to overcome in-bred 
ideological dispositions, and that may be even more difficult. 
But I hope that the program you lay out is not just a list of 
things to spend money on; but a list of things to do that do 
not cost money, or cost only modest amounts, and where the 
reason we are not doing them is not budgetary, but political 
and psychological.
    With that, we have our ranking member, Mr. Royce, who is 
now recognized for 5-ish minutes.
    Mr. Royce. Thank you, Mr. Chairman. Let me ask Mr. Tucker--
you argue that actions by the United States to increase the 
oversight and transparency of its own biodefense program would 
not only demonstrate international leadership by providing a 
model for other countries to follow, but would put the United 
States Government in a position to demand greater openness from 
others. I am just wondering what evidence you will base that 
on. Is that a hunch?
    Mr. Tucker. I would say it is a logical supposition that if 
we demonstrate leadership in this area, that puts us in a 
stronger position to pressure other countries to follow suit. 
Now I should clarify that confidence-building alone is not the 
solution. It is one of a complex of measures that will work 
together, that are synergistic.
    Mr. Royce. Apparently not, because, you know, I opened with 
my comments about the Russian scientist that Congressman Saxton 
and I met with. And in response to my questions, he said, no, 
we had been told in 1969 Nixon abandoned the program. The 
chemical weapons convention, that dates from 1972, right?
    So he told me that after 1972, they were pedal to the metal 
on this. He even told me a funny story, which is not all that 
funny, but it is definitely unique from the ones I have heard 
about him taking an elevator up to Andropov's office, because 
Andropov wanted to make sure that he really had developed 
something for which there was no antidote.
    He said he was carrying the petri dish in there, going up 
the elevator; and then putting it on the desk and saying, do 
not open it. I mean, it really gave me an insight into what 
these 50,000 employees were doing.
    But given the fact that you testified that Russia is moving 
away from transparency in its labs; and given the fact that in 
the face of the convention, he is telling me that they were 
doing that, are you suggesting that Russia today is responding 
to our lab policies?
    Is that what has happened? Because that sounds fantastic to 
me given the dialogue that I had. I just do not sense a 
connection here between what you say and what was really going 
on in Russia then or now.
    Mr. Tucker. Well, I think if you read, for example, Ken 
Alibek's memoir----
    Mr. Royce. Yes.
    Mr. Tucker [continuing]. He was the deputy director of a 
large component of the Soviet biological weapons program.
    Mr. Royce. I knew Alibek. He was a student of this.
    Mr. Tucker. He claims that Soviet bioweapons scientists 
were led to believe that the United States was secretly 
violating----
    Mr. Royce. That is what the Soviet state told them, right?
    Mr. Tucker. And it was only when he came to the United 
States under the trilateral process, which was a series of 
reciprocal visits to suspected biological warfare facilities, 
that he suddenly realized that he had been misled and that the 
United States did not have an offensive program.
    Mr. Royce. But it was the collapse of the Soviet system 
that gave us the opportunity basically to swing him.
    Mr. Tucker. He came before the collapse of the Soviet 
system. He came in early December 1991 under the trilateral 
process.
    Mr. Royce. Right.
    Mr. Tucker. And then he later defected to the United 
States. But when he came to the United States for those 
transparency visits, he was still a Soviet official.
    Mr. Royce. Right, but here is the point. There was a 
window, as the Soviet Union was breaking up, when I got access 
to this scientist. That window is closed. I am just telling 
you. China is not going to open its labs. The Russians are not 
going to open their labs.
    You testified that expanding international research 
partnerships and personal exchanges can provide valuable 
insight into foreign biodefense programs. And I would like to 
ask if you speak from personal experience? Because cannot such 
exchanges also result in foreigners acquiring intelligence we 
would rather not have them acquire?
    I am thinking about China right now; and how much down this 
road we have already gone and what a cul-de-sac it has been for 
us, in terms of the consequences of it.
    Mr. Tucker. I think obviously these programs involve a 
weighing of cost and benefits. They have to be very carefully 
designed so that they provide insights into foreign programs 
and the extent to which those programs are treaty-compliant, 
while limiting the risk of technology transfer. But I think 
they can be structured in that way. I believe it is important 
to engage with Russia. Because if we disengage----
    Mr. Royce. Listen, I agree with you about engaging with 
Russia. But I just wonder about the naivete with respect to 
what I have found is going on, in China and Russia.
    Mr. Tucker. I have spoken to many people who say that the 
best source of intelligence or information about what is going 
on in foreign laboratories of concern is the scientists 
themselves. And establishing personal relationships with these 
scientists makes them much more likely, if they are aware of 
something untoward, to contact their former colleagues that 
they met during an exchange program.
    Mr. Royce. Do you think that might happen in China?
    Mr. Tucker. I think it is very possible that it would 
happen in China.
    Mr. Royce. Let us look at A.Q. Khan and what happened with 
our programs with Pakistan. How is that working out for us? I 
mean, anyway, let me ask Mr. Rademaker a question here.
    You served in the Bush administration, Mr. Rademaker. Dr. 
Tucker testifies that the Bush administration wrote off 
bioterrorism prevention efforts as too difficult. Would you 
care to respond to that?
    Mr. Rademaker. I guess I do not know where to begin in 
responding to that. I think it is very rare for anyone to 
accuse the Bush administration of not doing enough to combat 
terrorism generally. Specifically, with reference to 
bioterrorism, that was a very high priority.
    Most of what the chairman was talking about--the billions 
of dollars that have been spent in this area--were spent during 
the Bush administration. So to say that the Bush administration 
wrote this off, I think I could bring in a whole raft of 
officials from the Department of Homeland Security who I think 
would take great offense at hearing such a comment.
    Mr. Royce. Let me ask you another question. Last question, 
the commission discussed the role of the citizen, and called 
for better engagement of the populace to combat the threat of 
bioterrorism.
    The commission found that the U.S. public has become 
complacent. What is the commission's message to the average 
American, going about his daily business? What is the take-
away?
    Mr. Rademaker. I will tell you, that recommendation was 
something felt very strongly by the chairman of our commission, 
former Senator Bob Graham of Florida, who had a long career in 
public service, as you know.
    He felt, and persuaded the other members of the commission, 
that public engagement is critically important for our efforts 
against terrorism to succeed--civic involvement, neighbors 
looking after the neighborhood, being aware.
    When we start talking about this, the specific measures 
that would be needed to respond, for example, to a biological 
attack, an organized community is really the best preparation--
a community in which it is possible, where mechanisms are in 
place to distribute vaccines if that needs to happen; where a 
public health infrastructure is in place to detect outbreaks 
when they occur; and citizen awareness of and involvement in 
all these matters. Senator Graham, I think, would speak very 
passionately on this subject if he were here today.
    Mr. Royce. Thank you, Mr. Rademaker. I think I am out of 
time.
    Mr. Sherman. Is there anyone still here, listening from the 
Bureau of International Security and Nonproliferation?
    [No response.]
    Mr. Sherman. The chair sees none. Is there anyone here from 
the State Department?
    [No response.]
    Mr. Sherman. The chair sees none--one more demonstration of 
what the Executive Branch thinks of the Legislative Branch. I 
am going to send a copy of the transcript of these hearings to 
Mr. Van Diepen; and I am going to be asking him to confirm to 
me that he has read every word.
    The fact that we would put on a seminar directly relevant 
to his operation--and those of us who have responsibilities 
that go from A to Z and from Southern California, we are on 
different committees, I am missing Financial Services right 
now--that I have got the time to be here when this is a part of 
my job, and he does not have the time to be here or even have 
his number two here, that seems to indicate that he does not 
believe--and I realize that this is typical of the entire State 
Department--that anything useful happens here in Congress; that 
the sole purpose of Congress is to give them money after 
getting false information as to why we should do it.
    So in the future, we will comment on whether the State 
Department at least bothers to humor us by pretending to listen 
to hearings that we have.
    Is somebody indicating that they with the State Department? 
Oh, because I asked earlier, and I saw no response. Please 
identify yourself for the record--deputy director for what?
    Okay, well, then I hope that you will report to the PDAS 
and others what happened here. And I hope in the future that 
you will overcome your shyness when I ask whether there is 
someone here from the State Department, and perceptively 
identify yourself; and I do thank you for being here.
    I only partially take back my view of what the State 
Department thinks of what goes on in Congress. But the fact 
that they at least have you sit here and report back is 
slightly more positive than the statements I just made. We 
stand adjourned.
    [Whereupon, at 12:07 p.m., the subcommittee was adjourned.]
                                     

                                     














                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               Extracted 
                               pages of 
                               report--
                               Sherman 
                               __________

Pages from a report by the International Security & Biopolicy Institute 
       submitted for the record by the Honorable Brad Sherman, a 
Representative in Congress from the State of California, and Chairman, 
         Subcommittee on Terrorism, Nonproliferation and Trade
[Note: The full report is available in committee records or on the 
Internet at:
http://biopolicy.org/sites/default/files/documents/
ISBI%20Congressional%20Report
%20Final.pdf.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               Sherman Tucker 
                            
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               
                                 <all>

</pre></body></html>
